HHS/OIG-Audit--"Review of Maine's Licensing of Foster Care Homes, (A-01-00-02500)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Maine's Licensing of Foster Care Homes," (A-01-00-02500)
January 23, 2001
Complete
Text of Report is available in PDF format (1.96 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Maine needs to make more timely reviews of foster care home license applications and
renewals. Sixty foster care homes had pending license renewals (some of which included temporary or provisional licenses)
of 3 years or more and averaged 4.3 years. Of the 60 homes, 31 did not meet one or more safety requirements. Specifically,
14 homes had fire code violations, 4 had bacteria in the water supply, and 13 had allegations of abuse or neglect. This
problem was due mainly to insufficient inspection resources and ineffective procedures, including the failure to use its
computer to automatically flag homes needing safety inspections or license renewals. Among other things, we recommended
that Maine improve procedures to ensure that licensing standards are consistently met, including adequate monitoring to
ensure early identification and prevention of safety issues. Maine officials concurred and are working towards improving
its licensing process, training staff, and hiring more inspectors.